                              NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




     OFFICE OF
INSPECTOR GENERAL




MEMORANDUM

Date:           January 3 1,2000

To:             File #000 1000l



                                                                 for Investigations




Background

        We received an allegation from a confident~alsource that Dr.
                                                                        a
failed to s ~ e n dindustrial funds which were used to obtain matching fun Ing rom
The source also alleged that the industrial funds which had been used to obtain NSF
                                                                                              d
funding had been provided by the federal government, and therefore should not have
been allowed as a match for the NSF funds.

Investigation




told that the decision to fund Dr.




                                                                 told her that e~theroption
was accept-               hi=Yill
        Dr.                       uested a no-cost extension which would enable him to
spend the money provided by             as well as the NSF matching funds.
Findings

       There is no evidence that Dr.                 made any attem t to obtain NSF
matching funds through false                         the fact that th
funding was provided by the Department of Energy, and this was deeme  e   l
                                                                        accep    e by
NSF. In addition, he has requested a no-cost extension which would enable him to spend
the remaining funds. This case is closed.
